Nos. 19-416 & 19-453
IN THE

$'upreme <!Court of tbe mlniteb $'!ates
NESTLE USA, INC.,

Petitioner,
v.
JOHN DOE I, ET AL.

Respondents.
CARGILL, INC.,

Petitioner,
v.
JOHN DOE I, ET AL.

Respondents.
On Petitions for Writs of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and as required by Supreme Court
Rules 29.3, 29.5, and 37.5, I certify that I have, on this 28 th day of October, 2019,
served three copies of the Brief for the National Confectioners Association, the
World Cocoa Foundation, and the European Cocoa Association, as Amici Curiae
supporting Petitioners upon each party separately represented in this proceeding by
causing them to be deposited with the United States Postal Service, with first-class
postage prepaid, addressed to counsel of record at the addresses listed below:

Neal Kumar Katyal
Hogal Lovells US LLP
555 Thirteenth St., N.W.
Washington, D.C. 20004
(202) 637-5528
Neal.katyal@hoganlovells.com

Counsel of Record for Petitioner Nestle USA, Inc.
Andrew John Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006
(202) 263-3220
apincus@mayerbrown.com

Counsel of Record for Petitioner Cargill, Incorporated
Paul Lindsey Hoffman
Schonbrun Seplow Harris & Hoffman LLP
200 Pier Ave. Ste. 226
Hermosa Beach, CA 90254
(310) 717-7373
hoffpaul@aol.com

Counsel of Record for Respondents John Doe I, et al.
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the brief to be served on the parties at the email addresses listed
above.
I further certify that all persons required to be served have been served.

Andrew Kim
Goodwin Procter LLP
901 New York Ave., N.W.
Washington, DC 20001
AndrewKim@goodwinlaw.com
(202) 346-4000

Counsel for Amici Curiae

October 28, 2019

